Audit Report




OIG-14-014
GENERAL MANAGEMENT: OCC’s Leasing Activities Conformed
With Applicable Requirements; Issues With the Former OTS
Headquarters Building Need to Be Resolved


December 20, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report................................................................................................. 1

    Background ................................................................................................ 3

    Audit Results .............................................................................................. 6

        OCC’s Real Property Leasing Policies and Procedures Complied with
        Applicable Laws, Rules, and Regulations.................................................... 6

        OCC’s Real Property Leasing Policies and Procedures Were Consistently
        Followed ................................................................................................ 7

        OCC’s Lease Requirements Were Appropriate ............................................ 9

        OCC’s Ownership Position of the Former OTS Headquarters Property Is
        Uncertain ............................................................................................... 12

        Other Matters Identified Relating to OCC’s Leasing and Management
        Activities ............................................................................................... 17

    Recommendations ....................................................................................... 19

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................               22
    Appendix     2:      Management Comments ........................................................            24
    Appendix     3:      Major Contributors to This Report ...........................................           26
    Appendix     4:      Report Distribution ................................................................    27

Abbreviations

 CBA                        Collective Bargaining Agreement
 CFPB                       Consumer Financial Protection Bureau
 CICA                       Competition in Contracting Act
 FDIC                       Federal Deposit Insurance Corporation
 FHL                        Federal Home Loan
 FHLBB                      Federal Home Loan Bank Board
 GAO                        Government Accountability Office
 GSA                        General Services Administration
 JAMES                      Joint Audit Management Enterprise System

                         OCC’s Leasing Activities Conformed With Applicable Requirements;                     Page i
                         Issues With the Former OTS Headquarters Building Need to Be Resolved
                         (OIG-14-014)
Contents

OCC          Office of the Comptroller of the Currency
OIG          Office of Inspector General
OTS          Office of Thrift Supervision
RSF          rentable square feet




           OCC’s Leasing Activities Conformed With Applicable Requirements;       Page ii
           Issues With the Former OTS Headquarters Building Need to Be Resolved
           (OIG-14-014)
                                                                                    Audit
OIG
The Department of the Treasury
                                                                                    Report
Office of Inspector General




                  December 20 2013

                  Thomas J. Curry
                  Comptroller of the Currency

                  This report presents the results of our office’s review of the Office
                  of the Comptroller of the Currency’s (OCC) real property leasing
                  and management activities.

                  The objectives of our audit were to (1) determine whether OCC’s
                  real property leasing policies and procedures comply with
                  applicable laws, rules, and regulations; (2) assess whether these
                  policies and procedures are consistently followed; (3) review select
                  OCC leases, to include its lease for new headquarters space, and
                  assess whether the lease requirements were appropriate; and
                  (4) review OCC’s management and leasing activities related to the
                  former Office of Thrift Supervision (OTS) headquarters property. To
                  accomplish our objectives, we reviewed relevant OCC leasing
                  documentation. We interviewed the Chief Financial Officer and
                  officials with OCC’s Real Estate Services division and
                  Administrative and Internal Law division. We also interviewed
                  General Services Administration (GSA) officials in regard to the
                  former OTS headquarters property. We conducted our fieldwork
                  from November 23, 2011, to May 31, 2013. Appendix 1 contains
                  a detailed description of our objectives, scope, and methodology.

                  In brief, we concluded that OCC’s policies and procedures complied
                  with applicable laws, rules, and regulations. We also found that
                  OCC consistently followed its established leasing policies and
                  procedures. Furthermore, based on a review of select leases,
                  including the lease for its new headquarters space at Constitution
                  Center, we found that OCC’s lease requirements were appropriate,
                  specifically as to acquiring the appropriate amount of space at a
                  reasonable cost. However, in our review of OCC’s leasing authority
                  and activities related to the former OTS headquarters property

                  OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 1
                  Issues With the Former OTS Headquarters Building Need to be Resolved
                  (OIG-14-014)
located at 1700 G Street NW, Washington, DC, we identified a
potential issue regarding OCC’s absolute rights to the property and
its ability to exercise all rights of ownership.

We recommend that the Comptroller of the Currency review its
ownership position of the former OTS headquarters property by
performing an analysis and developing a legal opinion of OCC’s
ownership rights to the property. If OCC determines it holds
ownership rights to the former OTS headquarters property, we
recommend the Comptroller of the Currency take action in an
expedient manner to retitle the property in the name of OCC to
ensure that its authority, interest, and ownership in the building is
uncontestable; or, in the alternative, engage Congress to provide a
specific statutory transfer. If OCC determines that it does not hold
ownership rights to the former OTS headquarters property, we
recommend the Comptroller of the Currency coordinate with GSA
to return the property to GSA’s inventory.

We also noted other matters relating to OCC’s leasing and
management activities for the former OTS headquarters property.
In a letter dated June 14, 2013, we requested a decision from the
Government Accountability Office (GAO) relating to OCC’s
authority to retain rental income received from leased space at the
former OTS headquarters property, as well as proceeds from any
future sale of the property. Accordingly, we recommend the
Comptroller of the Currency implement the actions that GAO
determines are necessary from its review of the matter. In addition,
although OCC is not violating any laws or best practices by being a
lessor of the former OTS headquarters property, it is questionable
whether the activity correlates with its mission. Therefore, if it is
determined that OCC holds ownership rights to the former OTS
headquarters property, we recommend the Comptroller of the
Currency reassess its continued involvement with the property, or
whether the property should be sold.

In a written response, provided as appendix 2, OCC stated that as
part of the transfer of the former OTS headquarters building from
OTS, OCC concluded that it owned the building. Based on its prior
analysis and any new information, OCC will develop a written legal
opinion on its ownership. OCC will also take appropriate action to
ensure that its rights in the property are protected; such

OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 2
Issues With the Former OTS Headquarters Building Need to Be Resolved
(OIG-14-014)
             requirements may include titling the building in its name. With
             respect to the pending request for a GAO decision, OCC will review
             recommendations received by GAO to determine the appropriate
             response. Furthermore, OCC will regularly assess its interest in the
             former OTS headquarters property, which will include an evaluation
             of whether it should sell or otherwise dispose of the building. We
             consider OCC’s planned actions and commitments to be responsive to
             our recommendations.

Background
             Title III, Transfer of Powers to the Comptroller of the Currency, the
             Corporation, and the Board of Governors, of the Dodd-Frank Wall
             Street Reform and Consumer Protection Act (Dodd-Frank Act)
             provides OCC with independent contracting authority, including the
             authority to execute leases. Section 319 of the Dodd-Frank Act
             allows OCC to (1) enter into and perform contracts, execute
             instruments, and acquire real property (or property interest) as the
             Comptroller deems necessary to carry out the duties and
             responsibilities of OCC; and (2) hold, maintain, sell, lease, or
             otherwise dispose of the property (or property interest) acquired.

             The Dodd-Frank Act also transferred many of the functions,
             personnel, and property of the former OTS to OCC. Section
             323(b)(1) of the Dodd-Frank Act provides that all real property
             transfer to OCC or the Federal Deposit Insurance Corporation
             (FDIC) in a manner consistent with the transfer of OTS employees.
             The agencies jointly determined that ownership of all buildings and
             real property would transfer to OCC. Accordingly, OTS’s interests
             in its legacy headquarters building located near the White House at
             1700 G Street NW, Washington, DC, and recently valued at
             $153.7 million, transferred to OCC effective July 21, 2011.
             Figure 1 below shows the former OTS headquarters property and
             figure 2 shows the location of the building.




             OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 3
             Issues With the Former OTS Headquarters Building Need to Be Resolved
             (OIG-14-014)
Figure 1: Former OTS Headquarters Property




Source: Office of Inspector General (OIG) Photograph

Figure 2: Location of the Former OTS Headquarters Property




Source: www.bing.com/maps




                   OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 4
                   Issues With the Former OTS Headquarters Building Need to Be Resolved
                   (OIG-14-014)
                         Such interests resulted in OCC becoming the successor lessor to
                         the ground level retail tenants at the property, who had previously
                         leased retail space from OTS.1 In addition to the existing retail
                         tenant leases, in February 2012 OCC entered into a 20-year
                         occupancy agreement 2 with the Consumer Financial Protection
                         Bureau (CFPB), and the building now serves as CFPB’s
                         headquarters. As a result of these leases, OCC receives rental
                         income. The leases expire at various dates through 2021, although
                         some provide renewal options. Some leases also provide for future
                         increases in rents over the term of the lease.

                         According to OCC officials, the 1700 G Street building and OCC’s
                         headquarters 3 prior to the 2012/2013 move to Constitution Center
                         were not large enough to support the consolidated operations of
                         the two agencies. In June 2008, OCC began to search for a new
                         headquarters space in Washington, DC. In June 2010, OCC hired a
                         commercial real estate firm to represent OCC for its strategic
                         planning and federal leasing activities. In September 2010, to
                         address the pending impact of the Dodd-Frank Act, OCC
                         determined that a consolidated headquarters was required to best
                         integrate OTS employees into OCC operations and culture. On
                         February 11, 2011, OCC entered into a lease at Constitution
                         Center located at 400 7th Street, SW, Washington, DC, for its new
                         headquarters. OCC moved into its new location beginning in
                         November 2012. 4




1
    A portion of space is also occupied by a child daycare. According to an OCC official, the child daycare
    did not pay rent to OTS.
2
    CFPB occupied portions of the 1700 G Street building from July 21, 2011, to February 16, 2012,
    under a short-term agreement.
3
    Since 2007 until the Constitution Center move, OCC housed its headquarters operations among three
    separate properties in Washington, DC.
4
    Under the authority of 40 U.S.C. § 581, GSA provides other federal agencies with services relating to
    the acquisition, management, and leasing of property. In accordance with Section 5 of Executive
    Order 13327, Federal Real Property Management, GSA provides policy oversight and guidance for
    executive agencies for federal real property management; manages selected properties for an agency
    at the request of that agency and with the consent of the Administrator of GSA; delegates operational
    responsibilities to an agency where the Administrator determines it will promote efficiency and
    economy, and where the receiving agency has demonstrated the ability and willingness to assume
    such responsibilities; and provides necessary leadership in the development and maintenance of
    needed property management information systems.

                         OCC’s Leasing Activities Conformed With Applicable Requirements;           Page 5
                         Issues With the Former OTS Headquarters Building Need to Be Resolved
                         (OIG-14-014)
Audit Results

                OCC’s Real Property Leasing Policies and Procedures
                Complied with Applicable Laws, Rules, and Regulations

                We concluded that OCC’s real property leasing policies and
                procedures complied with applicable laws, rules, and regulations. In
                performing our work, we identified the most significant laws, rules,
                and regulations applicable to OCC regarding its leasing activities. In
                this regard, the applicable requirements are as follows.

                        o Dodd-Frank Act
                        o 12 U.S.C. 5416: Contracting and Leasing Authority
                        o Competition in Contracting Act of 1984
                        o Prompt Payment Act
                        o National Historic Preservation Act of 1966
                        o Anti-Kickback Act of 1986
                        o Anti-Lobbying Act
                        o Debt Collection Improvement Act of 1996
                        o Architectural Barriers Act of 1968
                        o Executive Order 11246 – Equal Employment Opportunity
                        o Executive Order 12072 – Federal Space Management
                        o Executive Order 12941 – Seismic Safety of Existing
                          Federally Owned or Leased Buildings
                        o Executive Order 12902 – Energy Efficiency and Water
                          Conservation at Federal Facilities
                        o Executive Order 13006 – Locating Federal Facilities on
                          Historic Properties in Our Nation’s Central Cities
                        o OMB Circular A-123 – Management’s Responsibility for
                          Internal Control

                In its leasing manual, OCC identified the laws, rules, and
                regulations of primary importance that it is required to follow when
                conducting leasing activities. In addition, OCC’s leasing manual
                provides a checklist encompassing all the leasing processes that it
                believes must be followed to ensure compliance with applicable
                laws, rules, and regulations. Based on our review, we determined
                that the laws, rules, and regulations identified by OCC and the
                checklist were complete and pertinent.


                OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 6
                Issues With the Former OTS Headquarters Building Need to Be Resolved
                (OIG-14-014)
                          As mentioned above, the Dodd-Frank Act, among other things,
                          gave OCC independent contracting authority, including the
                          authority to execute leases. As a result, OCC is not required to
                          follow the Federal Acquisition Regulation or utilize the services of
                          GSA when conducting its leasing activities. However, according to
                          OCC’s policies and procedures, to the extent practicable, OCC
                          voluntarily follows the Federal Acquisition Regulation and GSA’s
                          acquisition manual when acquiring leasehold interests in real
                          property.

                          OCC’s Real Property Leasing Policies and Procedures
                          Were Consistently Followed

                          Based on our review of documentation and interviews of officials
                          with OCC’s Real Estate Services division, we concluded that OCC
                          consistently followed its established leasing policies and
                          procedures.

                          The types of leasing transactions OCC executes are relocations
                          (new leases), renewals, and succeeding leases. We sampled 4 of
                          the 90 OCC active leases 5 and determined that OCC consistently
                          performed the steps required in its leasing manual. OCC’s leasing
                          manual requires the use of a lease file checklist for each type of
                          leasing transaction to ensure that all required phases 6 in the leasing
                          process are complete and its policies and procedures are followed.
                          The lease file checklist lists all documentation required to be
                          included in the lease file. We found that the lease files for our
                          sample included a completed checklist and all relevant
                          documentation.



5
    We selected a risked-based sample of 4 leases for review, including Constitution Center. To select our
    sample, we identified risk-factors that could affect OCC’s execution of its leasing activities. In this
    regard, we sampled leases OCC executed under its Dodd-Frank Act leasing authorities with the largest
    square footage and annual rent. We also considered the leased property location to test for
    compliance with Executive Order 12072, Federal Space Management, which among other things,
    requires that the process for meeting federal space needs in urban areas give first consideration to a
    centralized business area and adjacent areas of similar character, including other specific areas which
    may be recommended by local officials.
6
    OCC’s leasing process consists of five phases which are determination of the lease requirements, pre-
    solicitation of lessors, solicitation of lessors, determination of the successful offeror, and execution of
    the lease.

                          OCC’s Leasing Activities Conformed With Applicable Requirements;              Page 7
                          Issues With the Former OTS Headquarters Building Need to Be Resolved
                          (OIG-14-014)
                         As part of our sample, we reviewed the lease file and relevant
                         documentation for OCC’s new headquarters space at Constitution
                         Center, its largest lease. We found that OCC followed its leasing
                         policies and procedures and complied with applicable regulations
                         including, among others, the Competition in Contracting Act
                         (CICA).

                         CICA requires federal agencies to conduct full and open
                         competition for leased space. However, when any one or more of
                         seven specific exceptions to CICA is applicable, CICA permits an
                         agency to use noncompetitive procedures. OCC used the sole
                         source exception to CICA to procure the Constitution Center
                         lease. 7

                         Consistent with Executive Order 12072, OCC commissioned a
                         market study of all buildings in the central business area of
                         Washington, DC, to determine which buildings met OCC’s
                         requirements 8 for its new headquarters space. The study, dated
                         October 2010, found that no existing building in Washington, DC,
                         could meet OCC’s space requirements. In response to our inquiry
                         as to the reasons OCC only pursued locations in Washington, DC,
                         for its new headquarters space, an OCC official told us that
                         because of frequent trips to the Main Treasury Building,
                         Congressional offices, and other federal entities, a location in
                         Washington, DC was preferred.

                         Shortly after completion of the market study, a soon-to-be tenant
                         in Constitution Center determined it had committed to too much
                         space in the building and was looking for a way to exit a significant
                         portion of its lease. After receiving an unsolicited proposal from
                         Constitution Center and the completion of a follow-up market
                         study, dated November 2010, which determined that Constitution
                         Center was the only existing space in Washington, DC, that could
                         meet OCC’s space requirements, OCC used the sole source

7
    41 U.S.C. § 253, Competition requirements, states, in part, that an executive agency may use
    procedures other than competitive procedures when the property or services needed by the executive
    agency are available from only one responsible source and no other type of property or services will
    satisfy the needs of the executive agency.
8
    OCC requirements for its new headquarters space included (1) 600,000 to 650,000 rentable square
    feet (RSF) of contiguous space in a single location, (2) availability for immediate improvements, and
    (3) availability for occupancy by fall 2012.

                         OCC’s Leasing Activities Conformed With Applicable Requirements;          Page 8
                         Issues With the Former OTS Headquarters Building Need to Be Resolved
                         (OIG-14-014)
                         exception to CICA to procure a lease at Constitution Center. As
                         required by CICA, OCC prepared a sole source justification for
                         other than full and open competition before using noncompetitive
                         procedures, which was reviewed and approved by a senior OCC
                         procurement official as well as a senior official in OCC’s legal
                         department. Furthermore, in accordance with internal policies and
                         procedures, OCC published a notice of intent to lease space from a
                         sole source and a notice of a contract award to a sole source in
                         FedBizOpps. 9

                         OCC’s Lease Requirements Were Appropriate

                         Based on our review of the sampled leases discussed above,
                         including OCC’s lease at Constitution Center, we found that OCC’s
                         lease requirements were appropriate, specifically as they relate to
                         acquiring the appropriate amount of space at a reasonable cost.
                         OCC established a methodology for determining space
                         requirements, and employed this methodology consistently to
                         acquire office space. Furthermore, OCC conducted cost analyses
                         when considering properties to fulfill its lease requirements and
                         typically executed leases at prices near or below market averages.

                         OCC Leased an Appropriate Amount of Space

                         Based on interviews with OCC officials and our review of OCC’s
                         space standards documents and the Collective Bargaining
                         Agreement (CBA) with the National Treasury Employees Union, we
                         determined that OCC leased an appropriate amount of space. The
                         amount of space that OCC leased was based on (1) its internal
                         space requirements standards, (2) the CBA, and (3) feedback from
                         the head of each local office.

                         OCC has space standards for offices, workstations, entry areas,
                         coat closets, and conference rooms. Based on an independent
                         study conducted in 2000, OCC established its standard office size
                         at 120 square feet, a reduction from a previous standard of 145
                         square feet. The standard workstation size for examiners is 50

9
    FedBizOpps is the central website that all federal agencies use to post open procurements. All federal
    procurements estimated to cost over $25,000 have to be listed on the website. Sources sought,
    award notices, sole source awards, and other procurement related releases are also posted.

                         OCC’s Leasing Activities Conformed With Applicable Requirements;            Page 9
                         Issues With the Former OTS Headquarters Building Need to Be Resolved
                         (OIG-14-014)
                          square feet. According to an OCC official, all OCC offices comply
                          with these space requirements except for leases that were
                          executed under standards previous to 2000. Locations operating
                          under the previous standard will eventually reduce their footprints
                          when the associated leases expire.

                          The CBA also requires standard space requirements for
                          workstations and the like. 10 These requirements apply to field
                          offices, satellite offices, and large bank offices. In addition, the
                          CBA requires that OCC address space imbalances as soon as
                          practicable. Based on our review of documentation and interviews
                          with OCC officials, OCC corrects these imbalances at renewal and
                          lease expiration intervals, or when space constraints impact OCC’s
                          ability to achieve its mission.

                          Assistant Deputy Comptrollers, who are the heads of each field
                          office, communicate the specific needs of their field office to OCC
                          management via a space requirements questionnaire. The Assistant
                          Deputy Comptroller also completes an assessment form that
                          evaluates the features (or lack thereof) of the current space. The
                          results of the questionnaire and assessment form are taken into
                          consideration by OCC management when making relocation,
                          renewal, and space requirement decisions. In addition, OCC
                          considers its projections for growth or contraction in the local
                          market when determining the amount of office space it needs.
                          Additional workspace to accommodate future growth must be
                          approved by the appropriate senior officer at the field office,
                          district office, and headquarters level. In the event that OCC has
                          underutilized office space, OCC considers the net cost of exiting
                          the lease and relocating to a smaller property.

                          We found that OCC applied the space requirement methodology
                          described above when it acquired space for the four leases in our
                          sample. For the first three leases in the sample (not including
                          headquarters space at Constitution Center), OCC leased space
                          without special circumstances or need to alter its occupancy plans.




10
     The requirements are 120 square feet for analysts, 64 square feet for office automation assistants,
     and 48 to 64 square feet for all other bargaining unit employees.

                          OCC’s Leasing Activities Conformed With Applicable Requirements;         Page 10
                          Issues With the Former OTS Headquarters Building Need to Be Resolved
                          (OIG-14-014)
                       However, special circumstances did alter the amount of space
                       leased relative to the amount of space required at Constitution
                       Center. On February 11, 2011, OCC executed a 15-year lease
                       agreement 11 with the owner of Constitution Center for 640,000 to
                       685,000 RSF. 12 The total amount of space leased exceeded OCC’s
                       original estimated space requirements; however, OCC justified its
                       increase in space and has since adjusted its occupancy plans to
                       ensure maximum utilization of the space. Based on Constitution
                       Center’s layout, to provide for physical security of OCC’s premises,
                       OCC increased the amount of space leased so that it could solely
                       control the two elevator banks serving its area of the building. To
                       fully utilize the additional space, OCC moved its Washington, DC,
                       field office and data center into Constitution Center. The leases for
                       both properties were due to expire in the near term; therefore, OCC
                       believed its decision to relocate these units to Constitution Center
                       was reasonable. We agree.

                       OCC Space Costs Were Reasonable

                       Based on OCC’s internally prepared cost analysis documentation
                       and a review of third-party commercial real estate data for the
                       markets in our sample, we determined that OCC acquired space at
                       a reasonable cost when fulfilling its lease requirements, including
                       its lease for Constitution Center.

                       OCC prepares various types of cost analyses depending on the
                       nature of the lease transaction. Such analyses include comparing
                       the cost of new construction to leasing an existing structure,
                       comparing the cost of staying in and/or modifying a current
                       property versus moving to another property, considering the cost
                       of leasing space in additional properties to accommodate growth
                       versus consolidating functions into a single property, and
                       considering the costs and benefits of offerors’ properties during the
                       selection phase. We did not take exception with the cost analyses
                       prepared for the leases in our sample.


11
   As part of the lease, OCC was provided 60,000 RSF for immediate occupancy, with the remainder of
   the space to be available in the third or fourth quarter of 2012.
12
   RSF is the square footage number used for leasing purposes that includes the actual square footage
   assigned to a space and an added factor for shared facilities within the building. For most properties,
   OCC used the Building Owners and Management Association RSF standard of measurement.

                       OCC’s Leasing Activities Conformed With Applicable Requirements;            Page 11
                       Issues With the Former OTS Headquarters Building Need to Be Resolved
                       (OIG-14-014)
                       OCC’s Ownership Position of the Former OTS
                       Headquarters Property Is Uncertain

                       Based on our review of various documents related to the former
                       OTS headquarters property, recently valued at $153.7 million, we
                       believe that OCC should take action to clarify its ownership of the
                       property. Currently, the deed to the land is held in the name of the
                       United States of America, yet the property (land and building) is
                       held in the inventory of OCC and is recorded as an asset on OCC’s
                       books.

                       Building History

                       The 1700 G Street land was originally acquired in 1972 by the
                       Federal Home Loan Bank Board (FHLBB) 13 using the services of
                       GSA. The deed for the land was issued to the United States of
                       America. GSA awarded a contract for the construction of the
                       building and for use as the FHLBB headquarters. To fund
                       construction of the building, Congress authorized FHLBB to impose
                       assessments, 14 along with advances, 15 on the Federal Home Loan
                       (FHL) banks. FHLBB took possession of the building in or around
                       1977, and began to lease out commercial space in the building (at
                       the ground level).



13
    FHLBB was established as an independent agency by the Housing Amendments of 1955 (69 Stat.
   640), August 11, 1955. In 1966, Congress amended 12 U.S.C. §1438, adding subparagraph (c),
   which provided that, among other things, that FHLBB could obtain property and construct a building
   upon it.
14
    According to an OTS legal opinion dated July 11, 1996 (hereinafter referred to as the July 1996 OTS
   legal opinion), FHLBB had assessed the FHL banks $45 million by 1978. The banks amortized these
   assessments as an expense. FHLBB recorded the $45 million as “Paid in Capital-FHLBB quarters.”
   OTS found no record of the FHLBB repaying the FHL banks the principal or interest on the
   assessments, noting that former FHLBB staff confirmed no repayments were ever made. In addition,
   the financial statements of both FHLBB and the FHL banks for calendar years 1974 through 1980
   reveal their intention to treat the assessments as non-repayable expenses of the FHL banks; thereby,
   eliminating any potential claims by the FHL banks to the property today.
15
    The advances were to be repaid to the FHL banks at 4.5 percent. FHL banks were not given a
   “mortgage” on the land or the building; their advances to the board were an unsecured obligation. It is
   unclear the amount of or whether or not the advances were repaid. According to the July 1996 OTS
   legal opinion, “we found no record of the Board {FHLBB} repaying the FHL banks the principal or
   interest on the assessments/advances. Former Board staff confirmed that no payments were ever
   made.”

                       OCC’s Leasing Activities Conformed With Applicable Requirements;           Page 12
                       Issues With the Former OTS Headquarters Building Need to Be Resolved
                       (OIG-14-014)
                       However, FHLBB’s authority to lease out space was questioned. In
                       a 1978 case, Globe, Inc. v. FHLBB, 16 a bookstore owner located
                       across the street from the building sued to invalidate a concession
                       agreement between FHLBB and a competing bookstore located in
                       the building, alleging that FHLBB did not have the authority to enter
                       into such an agreement. The court held that under
                       12 U.S.C. §1438(c)(4), GSA, not the FHLBB, had long-term
                       custody, management, and control of the building. The provision in
                       the statute only gave temporary authority to FHLBB. The custody,
                       management, and control of the building were to remain vested to
                       the Administrator of GSA until other arrangements were made
                       between FHLBB and the Administrator. Therefore, any agreement
                       made by the FHLBB could either be temporary or had to be formally
                       approved by GSA. Additionally, the court held that “if Congress
                       had intended that FHLBB should enjoy permanent authority over its
                       quarters, Congress could have used the familiar draftsman’s device
                       of vesting authority in FHLBB ‘unless and until the making of such
                       arrangements.’” Nevertheless, commercial activities continued and
                       neither FHLBB nor its successors have engaged in further
                       discussion or completed a formal arrangement with GSA regarding
                       the management, custody, or control of the property. 17

                       FHLBB occupied the building until Congress transferred the duties
                       and employees of the FHLBB among various other agencies in
                       1989. 18,19 These agencies, which included OTS, were to jointly
                       divide all property of FHLBB that had been used to perform its
                       functions and activities. OTS subsequently took possession of the
                       property at 1700 G Street and inherited the same powers,
                       restrictions, and responsibilities regarding the acquisition of real
                       property that FHLBB had.

                       In 1996, a question arose at OTS as to who owned the property at
                       1700 G Street. In the July 1996 OTS legal opinion, OTS counsel
                       concluded that the deed to the land occupied by the building was

16
    Globe, Inc. v. Federal Home Loan Bank Board, 471 F. Supp 1103 (1979)
17
    OCC had discussions with GSA solely for the purpose of executing an agreement with regard to
   OCC’s ability to lease the 1700 G Street property to CFPB, but not for determining the long term
   custody, management, and control of the building.
18
    P.L. 101-73, §405; 103 Stat. 363 (1989)
19
    As part of this reorganization, Congress substituted OTS for the FHLBB in 12 U.S.C. §1211 et seq.,
   including in the relevant provisions of 12 U.S.C. §1438.

                       OCC’s Leasing Activities Conformed With Applicable Requirements;         Page 13
                       Issues With the Former OTS Headquarters Building Need to Be Resolved
                       (OIG-14-014)
                        vested in the United States, but that OTS owned the building itself.
                        The OTS opinion conceded that no document exists vesting clear
                        title to the 1700 G Street building in OTS, but stated, “we cannot
                        find a basis for any other person(s) or entity(ies) to claim
                        ownership.” Nevertheless, the opinion stated that OTS did not
                        have statutory authority, for instance, to actually sell the property;
                        it would, presumably, be sold through GSA and the proceeds
                        distributed accordingly.

                        In July 2010, Congress passed the Dodd-Frank Act, which among
                        other things, abolished OTS and transferred its functions,
                        employees, and property to OCC, FDIC, and/or the Board of
                        Governors of the Federal Reserve System. Section 323 of the
                        Dodd-Frank Act provided that OTS property used to perform or
                        support the functions of OTS would be transferred to OCC or FDIC.
                        However, section 323 did not specifically transfer the 1700 G
                        Street property to OCC.

                        Section 319 of the Dodd-Frank Act gave OCC contracting and
                        leasing authority. In 2011, OCC attempted to enter into a long
                        term lease arrangement with CFPB to enable CFPB to acquire office
                        space within the 1700 G Street building. OCC asserted that its
                        right to lease space within the building was part of its independent
                        contracting and leasing authority provided by section 319.
                        However, according to an OCC official, CFPB believed that OCC
                        still needed to obtain a delegation of authority from GSA to lease
                        the building to CFPB. OCC received that delegation of authority and
                        on February 17, 2012, and entered into a 20-year occupancy
                        agreement with CFPB.

                        Discussion

                        The land at 1700 G Street was specifically mandated 20 to be
                        acquired “in the name of the United States,” and not in the name
                        of an independent agency. As stated above, the 1996 OTS opinion
                        conceded that no document existed at the time vesting clear title
                        to the 1700 G Street building to OTS. Therefore, whether or not
                        the property (land and building) was actually “property of” FHLBB


20
     P.L. 89-754, §1016(b)(2); 80 Stat. 1293 (1966)

                        OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 14
                        Issues With the Former OTS Headquarters Building Need to Be Resolved
                        (OIG-14-014)
                        and OTS and available for valid transfer to OCC in fee simple
                        absolute 21 by virtue of the Dodd-Frank Act is not clear.

                        Generally GSA has authority to dispose of federal property that is
                        not exempt by statute. 22 GSA counsel told us that in the absence
                        of a document separating the land and building, they are
                        considered to be one unit owned by the United States 23 and not by
                        any particular agency. Furthermore, GSA counsel said that GSA
                        would not support the concept that OCC, OTS, or FHLBB had the
                        authority to sell a property in the name of the United States in the
                        absence of very specific statutory authority.

                        GSA counsel further stated that the property is not listed in the
                        GSA inventory of federal buildings, but is reported as an asset on
                        OCC’s books. GSA counsel declined to provide an advisory
                        opinion 24 regarding ownership in fee simple absolute of the
                        property at 1700 G Street and suggested that OCC clarify its
                        position with regard to the property. However, an OCC official
                        does not believe that if OCC were to sell the building that it would
                        create any problems because of the authority provided to OCC in
                        Section 319. At the time of our audit, OCC had not prepared a
                        legal analysis to support this position.

                        According to OCC officials, they have considered, and plan to
                        re-consider, selling the property. A potential issue arises in the
                        event OCC should choose to sell the property. In addition to giving
                        OCC contracting and leasing authority, section 319 of the Dodd-
                        Frank Act enables OCC to sell a building or interests wholly
                        independent of GSA rules and regulations. Nevertheless, without
                        clear ownership of the property, OCC could have difficulty proving
                        ownership and therefore executing a sale. If OCC has title to the


21
   Fee simple means ownership that will not end with the death of the present owner but will be passed
   to his or her heirs. Absolute means that the owner's rights of ownership are not limited by any
   condition.
22
   Federal Property And Administrative Services Act Of 1949, 63 Stat 377 (June 30, 1949), as
   amended
23
   Department of Justice “Title Standards 2001” provides that such acquired property should be deeded
   to the United States of America and its assigns. See also 40 U.S.C. §3111.
24
   An advisory opinion is a formal opinion by a judge, a court, or a law officer relating to a legal question
   submitted by a legislative body or a governmental official. The opinion does not have any binding
   force.

                        OCC’s Leasing Activities Conformed With Applicable Requirements;             Page 15
                        Issues With the Former OTS Headquarters Building Need to Be Resolved
                        (OIG-14-014)
                          building, it may sell or otherwise dispose of it; if it does not, it
                          holds a property interest 25 and can only dispose of that interest,
                          but not sell it without going through GSA. This is important in the
                          context of providing clear title to any future purchaser and ensuring
                          that the property of the United States is administered in the
                          manner intended by Congress.

                          We reviewed the ownership documents for certain properties of
                          other agencies that have authority to hold and alienate property,
                          such as the U.S. Department of Housing and Urban Development
                          and the U.S. Postal Service. For those properties, the title was in
                          the name of the agency or in the name of the agency head and his
                          or her successors in office, rather than the United States. The
                          authority granted to OCC by section 319 of the Dodd-Frank Act is
                          similar to the authority granted to the U.S. Postal Service under
                          39 U.S.C. sections 401(5) and (6), where, among other things, it
                          can acquire, hold, maintain, sell, lease, or otherwise dispose of real
                          property or interest. 26 Furthermore, section 2002 of the same title
                          provides that GSA work with the U.S. Postal Service to transfer
                          properties to it. However, the Dodd-Frank Act has no provisions
                          similar to the U.S. Postal Service’s section 2002 that seemed to
                          anticipate formal property transfer.

                          Conclusion

                          Based on our review of the deed of the land, GSA’s and OCC’s
                          authorities, the history of the 1700 G Street property,
                          interpretations regarding ownership, and comparison of other
                          agencies’ rights and responsibilities regarding realty, we concluded
                          that the scope of OCC’s authority with regard to the building,
                          should OCC decide to sell rather than lease the property, could be
                          questioned.

25
      A property interest is the extent of ownership or rights of use in the property.
26
      39 U.S.C.§401 (5) and (6) state among other things, the U.S. Postal Service can (1) acquire real
     property, or any interest, as it deems necessary or convenient in the transaction of its business;
     (2) hold, maintain, sell, lease, or otherwise dispose of such property or any interest; (3) provide
     services in connection with such property or interest and impose charges; and (4) construct, operate,
     lease, and maintain buildings, facilities, equipment, and other improvements on any property owned or
     controlled by it, including, without limitation, any property or interest transferred to it under section
     2002 of this title. Section 2002 also provides that GSA work with U.S. Postal Service to transfer
     properties to it.

                          OCC’s Leasing Activities Conformed With Applicable Requirements;            Page 16
                          Issues With the Former OTS Headquarters Building Need to Be Resolved
                          (OIG-14-014)
As stated earlier (1) the deed of the land is in the name of the
United States of America, (2) no title exists for the building, and
(3) there are no documents expressly establishing ownership in any
particular agency of the United States. In the absence of such
documents, and in contemplation of the 1996 OTS opinion, we
recognize the likelihood for issues to arise concerning the
ownership and right to dispose of the property. We believe that
OCC should take action in an expedient manner to resolve the
ownership issue with the building.

Other Matters Identified Relating to OCC’s Leasing and
Management Activities

OCC‘s Authority to Retain Rental Income Received from Leased
Space at or the Proceeds from Any Future Sale of the Former OTS
Headquarters Property Is Uncertain

As discussed above, in fiscal year 2012, OCC entered into a
20-year occupancy agreement with CFPB for a portion of the
former OTS headquarters building, and began receiving rental
income from building tenants. According to OCC’s fiscal year 2012
annual report, OCC expects to collect approximately $12 million in
rental income from the entire property, including retail tenants,
during fiscal year 2013. Furthermore, OCC expects to collect
future minimum rental income, including fiscal year 2013, totaling
over $272 million over the terms of the leases. Based on a
consultant’s study, as of February 4, 2011, the building was
valued at approximately $153.7 million.

Section 319 of the Dodd-Frank Act allows OCC to (1) enter into
and perform contracts, execute instruments, and acquire real
property (or property interest) as the Comptroller deems necessary
to carry out the duties and responsibilities of OCC; and (2) hold,
maintain, sell, lease, or otherwise dispose of the property (or
property interest) acquired. However, there is a lack of specific
legislative authority to retain such funds, making it unclear whether
OCC is required to deposit such funds into the Treasury in




OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 17
Issues With the Former OTS Headquarters Building Need to Be Resolved
(OIG-14-014)
                       accordance with the Miscellaneous Receipts Act, 27 or whether it
                       may deposit them for obligation against its expenses and
                       operations costs. Our review of this and other applicable statutes 28
                       leads us to question the extent of OCC’s authority to dispose of
                       proceeds obtained by revenue-generating activities other than fees,
                       assessments, or charges made in the course of its examinations of
                       financial institutions. We, therefore, in a letter dated June 14,
                       2013, requested a decision from GAO relating to whether OCC is
                       authorized to retain rental income received from leased space at
                       the former OTS headquarters building, as well as proceeds from
                       any future sale of the property. That decision is pending.

                       Future Consideration of the Sale of the Property

                       As discussed above, OCC became a successor lessor as a result of
                       the transfer of the former OTS’ property interests. Prior to the
                       transfer of the property interest, OCC considered selling the former
                       OTS headquarters property rather than taking on the role of a
                       lessor. OCC engaged a private consulting firm to perform a study,
                       dated February 4, 2011, to value the property for sale and rental
                       purposes. 29 OCC decided not to sell the building. According to
                       officials, OCC will re-consider selling the property every 2 to 3
                       years. However, it is important to note that OCC's primary mission
                       is to charter, regulate, and supervise national banks and federal
                       savings associations. That said, although OCC is not violating any
                       laws or best practices by being a lessor, we believe that role does
                       not correlate with its primary safety and soundness related
                       mission. Therefore, if it is determined that OCC owns the former
                       OTS headquarters property, OCC should consider its legislatively-
                       based mission when it re-considers selling the property.

27
    The Miscellaneous Receipts Act (31 U.S.C. § 3302(b)(1)) states “Except as provided in section
   3718(b), an official or agent of the Government receiving money for the Government from any source
   shall deposit the money in the Treasury as soon as practicable with deduction for any charge or
   claim.”
28
    Our review primarily consisted of 12 U.S.C. § 16, 12 U.S.C. § 481, 12 U.S.C. § 482, and Revised
   Statute 5240, and the applicable sections and other statutes referred to within them.
29
    The study valued the building at approximately $153.7 million. At the time of the study, OCC knew
   that CFPB was willing to occupy the entire building under triple-net rent terms, which requires the
   lessee to pay for net real estate taxes on the leased asset, net building insurance, and net common
   area maintenance. The results of the study found that the net present value of renting the property
   under a triple net rent contract for 10 years slightly exceeded the net present value of selling the
   building.

                       OCC’s Leasing Activities Conformed With Applicable Requirements;         Page 18
                       Issues With the Former OTS Headquarters Building Need to Be Resolved
                       (OIG-14-014)
Recommendations
           We recommend that the Comptroller of the Currency:

           1. Take action to review its ownership position of the former OTS
              headquarters property by performing an analysis and developing
              a legal opinion of OCC’s ownership rights to the property.

               Management Response

               As part of the transfer of the former OTS headquarters property
               to OCC pursuant to Dodd-Frank, the OCC Chief Counsel’s
               Office reviewed documentation related to ownership of the
               former OTS headquarters building provided by OTS staff, as
               well as applicable laws and regulations related to the transfer
               and ownership of the building. OCC concluded it owns the
               building. Based on its prior analysis and any new information,
               OCC will develop a written legal opinion on ownership of the
               headquarters building.

               OIG Comment

               OCC’s planned action to develop a written legal opinion that
               considers the prior analysis and any new information is
               responsive to our recommendation. OCC will need to record an
               anticipated date for completing its planned action in the Joint
               Audit Management Enterprise System (JAMES), Treasury’s
               audit recommendation tracking system.

           2. If OCC determines it holds ownership rights to the former OTS
              headquarters property, take action in an expedient manner to
              retitle the property in the name of OCC to ensure that its
              authority, interest, and ownership in the building is
              uncontestable; or, in the alternative, engage Congress to
              provide a specific statutory transfer.

               If OCC determines that it does not hold ownership rights to the
               former OTS headquarters property, coordinate with GSA to
               return the property to GSA’s inventory.


           OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 19
           Issues With the Former OTS Headquarters Building Need to Be Resolved
           (OIG-14-014)
    Management Response

    OCC will take appropriate action to ensure that its rights in the
    former OTS headquarters building are protected based on
    applicable statutory and regulatory requirements. Such
    requirements may include titling the building in the name of
    OCC. OCC expects that its written legal opinion will conclude
    that OCC owns the building.

    OIG Comment

    OCC’s planned action is responsive to our recommendation. OCC
    will need to record an anticipated date for completing its planned
    action in JAMES.

3. Implement the actions that GAO determines are necessary from
   its review of OCC’s authority to retain rental income received
   from leased space at the former OTS headquarters building, as
   well as proceeds from any future sale of the property.

    Management Response

    OCC provided written responses to GAO questions concerning
    OCC’s retention of rental income received from leased space at
    the former OTS building. To date, OCC has not been contacted
    by or received an opinion from GAO. When OCC receives
    recommendations from GAO, OCC will review the
    recommendations and determine the appropriate response.

    OIG Comment

    We consider OCC’s commitment to determine an appropriate
    response to any GAO recommendations as meeting the intent of
    our recommendation. While the timing for implementation is not
    know at this time, pending the decision by GAO, OCC should still
    estimate and record an anticipated completion date in JAMES.

4. As applicable based on the results of the actions taken for
   Recommendations 1 and 2, reassess its continued involvement
   with the property, or whether the property should be sold.

OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 20
Issues With the Former OTS Headquarters Building Need to Be Resolved
(OIG-14-014)
      Management Response

      OCC will regularly assess its interest in the former OTS
      headquarters building, which will include an evaluation of
      whether it should sell or otherwise dispose of the building.

      OIG Comment

      OCC’s commitment to regularly assess its interest in the former
      OTS headquarters property to be responsive to our
      recommendation.

                                 ******


We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-5776 or Alicia Weber, Audit Manager, at
(202) 927-5811. Major contributors to this report are listed in
Appendix 3.


/s/

Susan Barron
Audit Director




OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 21
Issues With the Former OTS Headquarters Building Need to Be Resolved
(OIG-14-014)
Appendix 1
Objective, Scope, and Methodology




The objectives of our audit were to (1) determine whether the
Office of the Comptroller of the Currency’s (OCC) real property
leasing policies and procedures comply with applicable laws, rules,
and regulations; (2) assess whether these policies and procedures
are consistently followed; (3) review select OCC leases, to include
its lease for new headquarters space, and assess whether the lease
requirements were appropriate; and (4) review OCC’s management
and leasing activities related to the former Office of Thrift
Supervision (OTS) headquarters property. We conducted our
fieldwork from November 2011 to May 2013. The scope of our
audit ranged from 2005 to present to review leasing activities, and
from 1966 to present with regard to the former OTS headquarters
property.

To accomplish our objectives, we

•   reviewed applicable laws, rules, and regulations which OCC
    must follow when conducting leasing activities.
•   identified laws, rules, and regulations which could be applicable
    to OCC when conducting its leasing activities.
•   reviewed OCC’s internal policies and procedures related to real
    property leasing and compared them to applicable laws, rules,
    and regulations.
•   sampled 4 of 90 leases in effect at the time of our audit, which
    consisted of relocation, renewal, and supplemental leases. We
    included Constitution Center in our sample because we
    specifically identified it in our audit objectives. Based on a
    review of the documentation, we determined that the inherent
    risk that policies and procedures and/or lease requirements were
    inappropriate was very low. Therefore, we selected a sample of
    3 leases in addition to Constitution Center, covering 4 out of
    OCC's 90 active leases (approximately 4.4 percent). To select
    our sample, we identified possible risk-factors related to OCC’s
    execution of its leasing activities; such risk factors included the
    square footage rented, annual rent paid, and locations of
    properties. We reviewed relevant lease documents for each
    lease in our sample to determine whether policies and
    procedures were consistently followed and the lease
    requirements were appropriate. We reviewed publicly available
    2011 commercial real estate data published by two global


OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 22
Issues With the Former OTS Headquarters Building Need to Be Resolved
(OIG-14-014)
Appendix 1
Objective, Scope, and Methodology




    commercial real estate services firms. We compared the average
    rents by market to the amounts of rent paid by OCC.
•   interviewed the Chief Financial Officer and officials with the
    following OCC divisions responsible for its leasing and real
    estate property management activities: Real Estate Services and
    Administrative and Internal Law.
•   reviewed relevant documentation related to OCC’s acquisition
    and management of the former OTS headquarters property in
    Washington, DC.
•   reviewed historical and legal documentation related to the
    history of ownership of the former OTS headquarters property.
•   interviewed officials with the General Services Administration,
    including the Senior Asset Manager, Supervisory Asset
    Manager, Assistant Regional Counsel, and Supervisory General
    Attorney. We also consulted with the Deputy Assistant
    Inspector General for Real Property Audits at the General
    Services Administration’s Office of Inspector General regarding
    the legal ownership status of the former OTS headquarters
    property.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 23
Issues With the Former OTS Headquarters Building Need to Be Resolved
(OIG-14-014)
Appendix 2
Management Comments




OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 24
Issues With the Former OTS Headquarters Building Need to Be Resolved
(OIG-14-014)
Appendix 2
Management Comments




OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 25
Issues With the Former OTS Headquarters Building Need to Be Resolved
(OIG-14-014)
Appendix 3
Major Contributors To This Report




Susan Barron, Audit Director
Amni Samson, Audit Manager
Alicia Weber, Audit Manager
Kathryn Bustell, Auditor-in-Charge
Amy Altemus, Assistant Counsel
Rufus Etienne, Referencer




OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 26
Issues With the Former OTS Headquarters Building Need to Be Resolved
(OIG-14-014)
Appendix 4
Report Distribution




The Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner




OCC’s Leasing Activities Conformed With Applicable Requirements;       Page 27
Issues With the Former OTS Headquarters Building Need to Be Resolved
(OIG-14-014)
